V

IN THE
SUPREME COURT OF THE UNITED STATES

%

— PETITIONER
(Your Name)
:

VS.
L.

Unco-

; .

v.

L, L'

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI T

PILED
JLL 1 ^ 2020
Soggcg|CLBRK

Fourth-

Cq^kt of AtpPgai-Z

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

<^££6-0igV

Sun,#*

(Your Name)

RECEIVED
(Address)

t>i^/tv

NOV 2 7 2020

K/.c hjno

•FFICE OF THE CLERK
SUPREME COURT, U.S.

(City, State, Zip Code)

33\>(Phone Number)

Received
JUL 2 0 2020

\

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[l/( All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

Ca i-+e<"
6-o>rtS
& rut*

y

ftraJlty

RELATED CASES

Table of Contents
1.

Appendix A- Federal Appeals Court 4th Circuit

2.

Oct 4th District Court Filing Motion-"En Banc" 4th Circuit Federal Court Appeals
a.

3.
4.

Appendix B-District Court Greensboro Middle District NC
Aug. 6th District Court Filing Answers and Response, Motion to set Trial

5.

Feb. 21st Original Filing Civil Rights Complaint 19CV203 (Under 42 USC 1983a.

+

Plus two pages filed UNCG graduation proof

Bivens V. Six Unknown Agents,403 US 388 (1971) Claim

4
3
3
4
7

6.

Rule40 Veteran Status

1

7.

Rule40 Letters from Veterans Administration Doctors

2

8.

Department of Education Findings OCR Complaint No. 11-18-2194

8

9.

Dept. Justice Letter 8t Final Disposition Response/30 day Notice

2

10. UNCG Un-official Transcript

5

11. UNCG Graduation Hold Feb 27, 2019- Dec 31, 2099

1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is
\*/\ reported at I'owtrtt ^ifccurr Lcufrr of kPfBMS
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix

^__to

the petition and is
[vj reported at
o , rJC.
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at____
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
sj\ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was —/t? b oLQ / Q-rO Ao------.
-57
/ ^0
[t/fNo petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

United States Supreme Court
Case No.

USCA9 No.19-2347

Gregory Scott Sumner- Plaintiff-Appellant

v.
UNCG- Defendant
PETITION FOR WRIT OF CERTIORARI:
I respectfully request a writ of certiorari, for an "en banc" panel review of my case.
Questions Presented
This is a Title II ADA case violation of Civil Rights. 35.130 (a)No qualified individual with a disability shall,
on the basis of disability, be excluded from participation in or be denied the benefits or services,
programs, or activities of a public entity, or be subjected to discrimination by any public entity. (3)(ii)
That have the purpose or effect of defeating or substantially impairing accomplishment of the objectives
of the public entity's program with respect to individuals with disabilities; or...
First amendment: Free speech suppression& Fourteenth Amendment: denial of Equal Protection.
Other; Bivens Vs. Six Unknown Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971)
Fourth Amendment: Un-warranted Tresspass outside of jurisdiction across county lines without
probable cause or a Warrant. To threaten, coerce, and intimidate by UNCG Police department.
Retailation!
14.5 JURISDICTION
Department of Education, Findings August 22, 2018 (enclosed), OCR No. 11-18-2191 Page 7. As Noted
OCR is opening investigation of Allegations 2(a) and 2(c).
Pursuant to regulation at 34 C.F.R. 110.39 implementing the Age Act, to file a civil action for Injunctive
Relief in Federal Court following exhaustion of administrative remedies are exhausted if: (1)180 days
have elapsed since the complainant filed complaint with OCR, and OCR has made no finding, or (2) OCR
issues any finding in favor of the recipient. A Civil Action can be brought only in a United States
Page8. District Court for the district in which the recipient is found or transacts business. A complainant
prevailing in a Civil Action has the right to be awarded the cost of the action, including reasonable
attorneys fees, but these costs must be demanded in the complaint filed with the court. Before
commencing action the complainant shall give 30 days notice registered mail to the Secretary
Department of Education, The Secretary Department of Health and Fluman Services, The Attorney
General of the United States, and the Recipient. The notice shall state the alleged Violation of the Age
Act, Relief Requested, The Court in which the action will be brought, and whether or not Attorneys fees
are demanded in the event the complainant prevails. The Complainant may not bring an action if the
same alleged violation of the Age Act by the same recipient is the subject of a pending action in any
court of the United States.

RECEIVED
NOV 2 7 2020

Please be advised that the University must not Harass, Coerce, Intimidate, Discriminate, or otherwise
retaliate against and individual because that individual asserts a right or privilege under a law enforced
by OCR or files a complaint, testifies, assists, or participates in a proceeding under a law enforced by
OCR. If this happens the individual may file a Retaliation Complaint with OCR.
STATEMENT OF THE CASE

Case Brief-1 am a 49-year old, Disabled Veteran; who has seizures, PTSD, vision and hearing impairment,
and Migraines among other documented issues. I Graduated at UNCG in December of 2016, only to
have my graduation canceled and the demand of more classes. I have been harassed, intimidated,
coerced and threated by UNCG and campus police! I filed Federal Lawsuit on 2/21/2019 and UNCG
retaliated by filing a graduation hold on my account the same week! Today the Harassment continues;
as I am not even allowed to obtain an official college transcript, nor go to any other college! The
Associate Vice Chancellor/Dean of Students (named in this law suit) has placed a
Registration/Graduation hold on my account with the dates from 2/27/2019 thru 12/31/2099
(attached!) It is an impossibility for me to obtain the degree that I've earned or been placed into
$35,000 debt for! UNCG has denied me access to this public facility, Job fairs, accommodations as
prescribed by the Veterans Administration, and denied me graduation and future job opportunity. This
is Extortion and Predatory Lending by UNCG and the state of North Carolina!
Appendix A- Fed. Appeals. Tennessee V. Lane- The States attorney general got it dismissed based on the
claim that they were not notified previously, that there would be an appeal. That is false! Please refer to
District court filling of Oct. 4th 2019 Motion- "En Banc" Fourth Circuit Federal Court of Appeals
(attached). That was filled in district court, how much further notification does one need of an appeal?
The Appeals court did not look at this case and my Civil Rights continue to be denied!
Appendix B- District Court. Tennessee V. Lane- At the lower courts, I experienced extreme prejudge and
lack of impartiality! The court did not work to protect my interest as a disabled veteran, but to protect
the University and the states corruption! The clerk of court laughed at me and told me my case was
dead because I had a fee waiver, "In Forma Pauperis". I had to borrow money to pay court cost even
thought I had filed In Forma Pauperis! In fact, at the District court level the judge interfered with the
court process by blocking Federal marshals from delivery of Summons service. Please refer to filing of
August 6th 2019 in District court it provides details (attached). Then based on the states claim of
improper service, the judge proceeded to dismiss my case? I was denied access to District court!
This case has not been heard. An individual Vs. State and Corruption. But that is not what Tennessee
Vs. Lane and Justice Antonin Scalia says that as a disabled person I have a right to be heard. I have
been denied fair and impartial access to court as a Disabled Veteran! I would like this case to be
reviewed by "En Banc" panel review. I appreciate your time and consideration in this matter. I look
forward to your review and judgement. Respectfully thank you. Greg Sumner (Pro-Se)

A fi>sfrhl^

1/e-^T r<* « X h (AU<- b-eqtn denied F^ir

SparbU access bo courb}
$.

hy

<Xf

tz r*

X t-t^ue^f ~H*iS Case ht.
~

I tlnM-es^ce. I/, L*. «e

L-OLJtr 6ou.r^S f % Zyptn-t^c** £Tje+-r*n* e yor<jt««/^ e a t* j UiA o*

/m-a^ck P i&l i ly! TUt

pro

/S/fj-ricd Coia^ Juc/^e kioJctJ fWer*^ /^^SlbAlls

S«hmo.j Srrwc* JdS^l -fhe.-fU SU* cJ*,Z*i-I*
Wo) I uj&j tr^priput' StrviLxl SC^as

t\fir\ct Cout*■ 1U» rte S«„< ~*S +™<
bo

■X fee3 +iws 6>ur+ ft- - ^
CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

n
Date:

Jl- ^juyt*n^uJL^

H, ZQS

*”J- S**

AttAtS

Af>P^S

